IMPORTANT VISA SIGNATURE AGREEMENT & DISCLOSURES

This document explains the rules which govern your State Credit Union Visa Signature credit card account. Please read carefully and keep in
a safe and convenient place.

1. Interest will not be imposed on credit purchases of goods and services if you pay the entire new balance shown on the previous monthly
statement within 25 days from the closing date of the statement.

2. There is no grace period on cash advances made on your card. Interest will be charged from the date of the cash advance. If your
balance is paid prior to the due date, no additional interest will be accrued in the current billing cycle. (See Balance Computation Method
below.)

3. Balance Computation method for interest: We calculate the interest on your account by applying the periodic rate to the “average daily
balance” of your account. To get the “average daily balance,” we take the beginning balance of your account each day, add any new
purchases and cash advances, unpaid interest, current late payment fees, and other applicable fees, and subtract any payments or
credits. Then we add up all the daily balances for the billing cycle and divide by the number of days in the billing cycle. This gives us
the average daily balance.

4. Partial Grace: Partial Grace adds an additional grace period to portions of an unpaid balance in the billing period where an account
moves from paid-in full to revolving status. In the transition-to-revolving billing period, balances equal to the amount of any partial
payment must not be included in the Average Daily Balance subject to interest. The month an account becomes revolving is the first
month where the payment made by the payoff exception date (most frequently cycle date) is less than the statement balance owed.
Partial Grace only applies to transactions that are subject to a grace period.

5. The MINIMUM monthly payment is 2.5% of the new balance or $25.00, whichever is greater.
6. Cardholder payments made in excess of the minimum payment due will be applied to the highest APR balance first and then, in order,
down to the lowest APR balance.

7. Over-limit conditions must be cleared immediately because your account will not be allowed future approvals until your balance is below
the approved limit.

8. A fee (see Fee Schedule) will be charged on any check issued for payment on your credit card if the check is dishonored and returned.
This fee will be added to your account balance.

9. With your SCU Visa Signature® card, you may obtain cash advances at any financial institution displaying the Visa logo. Cash advances
are also available at many ATMs.

10. Your Visa Signature card is issued for a 36-month period, but it can be cancelled by State Credit Union at any time if used improperly or
payments are not made. We will notify you in writing if your account is closed due to inactivity for 18 or more months.

11. Credit Life Insurance is available at the member’s option. Credit Disability Insurance is also available. The charges will be added to your
account balance each month.

12. You agree to notify us immediately at our credit card processor of the loss, theft, or unauthorized use of your credit card at 1866-583-4060 or 1-727-299-2449 if outside of the U. S. You may be liable for the unauthorized use of your credit card. You will not be
liable for unauthorized use that occurs after you notify us of the loss, theft, or possible unauthorized use. In any case, your liability will
not exceed $50 for unauthorized cash advances at ATMs. You will have no liability for unauthorized purchases made with your credit
card. If you report your card Lost/Stolen, it is your responsibility to destroy any remaining cards with that number. If you find the
Lost/Stolen card, you should destroy the card and notify the Credit Union. If you use the card and it is recovered by an authorized Visa
merchant (because it appears on the Revoked Card List or the Visa Center tells the merchant to pick up the card), then you will be liable
for any fees, costs or merchant awards resulting from your unauthorized use of the card.

13. There will be a replacement fee (see Fee Schedule) for a mutilated card or if the card is more than ninety (90) days from the scheduled
reissue. Expired cards will be reissued without cost to you.

14. If you ask for a copy of a document, such as a convenience check or billing statement, a per-hour charge (see Fee Schedule) may be
imposed for the time that is required to research and locate the document. In addition, a copying fee (see Fee Schedule) will be charged.
No charge will be imposed in connection with any billing error.

1

IMPORTANT VISA SIGNATURE AGREEMENT & DISCLOSURES

15. In the event, that you receive convenience checks that access your credit card account. These checks are good for only 90 days. Please
note: Convenience Checks will be treated as Cash Advances. Interest is charged on cash advances beginning on the transaction
date. If you are over your credit limit, are in default, your account privileges have been cancelled, or your card expired, we may decline
to honor a convenience check and a fee (see Fee Schedule) will be added to your account balance. Convenience checks may be used
only by the person whose name is printed on them. You may not use convenience checks to pay any amount which you owe SCU. Paid
convenience checks will not be returned to you. There is a fee (see Fee Schedule) when you stop payment on a convenience check. It
is the Credit Union’s sole discretion to issue convenience checks to any member.

16. If you incur a charge (a Purchase or Cash Advance) in a foreign currency, the charge will be converted into a U.S. dollar amount in
accordance with the operating regulations of Visa international in effect at the time that the transaction is processed. Currently, these
Regulations provide that the currency conversion rate to be used is either: (a) a wholesale market rate; or (b) a government-mandated
rate in effect one day prior to the processing date, increased by one percent in each case. Visa retains this one percent as compensation
for performing the currency conversion service. The Credit Union reserves the right to charge a fee for this service with appropriate legal
notice. The currency conversion rate in effect on the processing date may differ from the rate in effect on the transaction date or the
posting date.

17. Your Visa Signature card may not be used for any illegal transaction, such as unlawful gambling.
18. Variable Rate Information: Your APR for purchase, cash advances and balance transfer transactions may vary. Your Credit Card has a
variable rate feature meaning the Annual Percentage Rate (corresponding to the periodic rate) and the term of your Visa Signature Credit
Card may change due to interest rate fluctuations. The rate is determined by adding a margin of 4.0% to the prevailing U.S. Prime Rate.
The Prime Rate, used to determine your APR, is the rate published in the “Money Rates” section of the Wall Street Journal. The APR
will change, if needed, based on this rate calculation method at your billing cycle date. We reserve the right NOT to change the variable
rate if Prime changes.

19. The Credit Union may change the terms of this Agreement, including the Annual Percentage Rate margin, with 45 days written notice.
Except where limited by applicable law, the new terms, including but not limited to, the way the Credit Union calculates interest, and the
minimum payment due, will apply to both new purchases and cash advances and to the existing outstanding balance of your account as
of the day of the change. In accordance with applicable law, the Credit Union will notify you of any increased charge. However, if the
APR margin changes, the new APR will apply only to new purchases and cash advances. If you receive notification of an increase in the
APR or other “significant change” in terms, you will have the right to cancel before the effective date of the increase or change in order
for your account to remain under the same terms and conditions. Your minimum payment requirement would remain the same.

20. The use of your card confirms agreement to the Visa terms and conditions as well as the terms outlined herein. Complete disclosures,
terms and conditions will be provided to you. Please read all terms and conditions prior to use of your card. If you do not agree with the
terms and conditions provided, contact the SCU Visa Department in writing (mail or fax) immediately to cancel the account.

21. BILLING RIGHTS
In Case of Errors or Inquiries about Your Bill:
If you think your bill is wrong, or if you need more information about a transaction on your bill, write us on a separate sheet of paper at
the address indicated below as soon as possible. We must hear from you no later than 60 days after we sent you the first bill on which
the error or problem appeared.
You can telephone us but doing so will not preserve your rights.
In your letter give us the following information:

* Your name and account number.
* The dollar amount of the suspected error.
* Describe the error and explain, if you can, why you believe there is an error. If you need more information, describe the item you are
unsure about.
You do not have to pay any amount in question while we are investigating, but you are still obligated to pay the parts of your bill that are
not in question. While we investigate your question, we cannot report you as delinquent or take any action to collect the amount you
question.
If you have a problem with the quality of goods or services that you purchased with a credit card, and you have tried in good faith to
correct the problem with the merchant, you may not have to pay the remaining amount due on the goods or services. You have this

2

IMPORTANT VISA SIGNATURE AGREEMENT & DISCLOSURES

protection only when the purchase price was more than $50.00 and the purchase was made in your home state or within 100 miles of
your mailing address. (If we own or operate the merchant, or if we mailed you the advertisement for the property or services, all purchases
are covered regardless of amount or location of purchase.)
Send Inquiries to:
S.C. State Federal Credit Union
Visa Department
P.O. Box 726
Columbia, S.C. 29202

22. If your account goes past due, no further approvals or advances will be made until your account is current. A chronic past-due condition
will cause your credit card to be revoked. A late fee (see Fee Schedule) will be assessed if the account becomes 15 days delinquent
from the date of the due date. Payments must be received by 5:00 p.m. EST in order to insure credit for that day.

23. If your account goes past due sixty (60) days, the card may be cancelled. However, the Credit Union may reinstate your card, provided
your account is brought up to date and is given reasonable assurance it will not become past due again. Any future recurrence will cause
an automatic cancellation. The Credit Union may demand payment in full upon written notice to the cardholder, on any delinquent or
cancelled account.

24. Your monthly statement is your bill. You are required to immediately notify the Credit Union in writing if your name and/or home address
changes. Your due date will remain the same each month.

25. Your performance under this agreement may be reported to Credit Reporting Agencies. Protect your credit rating by paying promptly.
26. You may close your account at any time by notifying us in writing and returning your card or cards, cut in half. You will remain responsible
for payment of the amount owed to the Credit Union according to the terms and conditions in effect at the time you close your account.

27. Keep your copy of transaction slips. Checking your copies against your monthly statement can help you guard against incorrect charges
and fraudulent vendors.

28. Be careful about placing orders by telephone, mail or internet. Satisfy yourself that the company is a reputable firm.
29. Do not carry cards that are used infrequently, but store in a secure manner where no one else has access to them.
30. Sign all new cards immediately after receiving them.
31. Insist that any duplicate transaction slips made through error be destroyed. It is also a good idea to have any carbon papers destroyed
as well.

32. The Credit Union currently offers a Rewards Program. SCU reserves the right to make changes in the Rewards program and/or
redemptions without notice; and may cancel the program with 15 days’ notice, after which the Credit Union shall have no obligations
under the program, or the rewards cancelled.

33. SKIP PAYMENT OPTION: At our discretion, we may offer you the opportunity to not make ("skip") a minimum payment during certain
designated billing cycles ("skip payment period"). If you do not make your minimum payments as provided in this Agreement, during
such designated billing cycles, you understand that we will continue to apply finance charges to your account. Beginning with the billing
cycle following an allowed skip payment period, all other provisions of this Agreement will apply. We have no obligation to accept your
application for any skip payment period offered, and you authorize us to investigate your creditworthiness including obtaining consumer
credit reports. We may charge you an application processing fee of up to $20.00, which will be reflected on your next statement should
you choose not to pay the fee outright, for each skip payment period that we may offer to cover our costs of investigating your
qualifications for this extension including but not limited to the costs associated with researching your creditworthiness.

3

IMPORTANT VISA SIGNATURE AGREEMENT & DISCLOSURES

Visa Terms & Conditions
The person (“Cardholder”) whose name is embossed on the face of the Visa Signature card (“Card”) applied for and was issued, and each
Cardholder, in the event more than one Card is enclosed herewith bearing the same account number, by signing or using said Card, receipt of
which is acknowledged, agrees with the issuer of the Card, SC State Federal Credit Union (SCU) as follows:

1. Goods and services (“Credit Purchases”) may be purchased or leased by means of such card by Cardholder from any retail business
establishment (“Seller”) who honors same upon the execution of a sales slip evidencing such Credit Purchase and bearing the account
number of Cardholder embossed on the face of such Card. Additionally, Visa Cash Advance (“Loans”) may be obtained through use of
such Card (a) upon execution of a written request of Cardholder in a form furnished to him/her from any bank that is a member, alone or
in association with others, of Visa Inc. and (b) upon execution of a written separate agreement with issuer for a Visa overdraft financing
agreement, if offered by issuer. Up to 20 authorizations may be granted per day.

2. Cardholder shall be liable and agrees to pay issuer for Credit Purchases made by, or for Loans extended to, Cardholder or anyone else
using such Card unless the use of such Card is by a person other than the Cardholder (a) who does not have actual, implied or apparent
authority for such use, and (b) from which Cardholder receives no benefit. Additionally, Cardholder shall be jointly and severally liable
and agrees to pay for all Credit Purchases and Loans obtained through the use of any other Card for Cardholder’s account number that
has been issued to another person by reason of such person being a member of Cardholder’s family, or otherwise issued upon
Cardholder’s request (all such Cards issued for the Cardholder’s account hereinafter collectively called “Related Cards”). Further, if you
authorize us to honor any Purchase or Cash Advance you make by telephone, mail, or internet on this account, you agree that a signature
is not necessary as identification in such cases.

3. Each Card is the property of issuer, is not transferrable and must be surrendered upon demand. It can be cancelled as well as repossessed
by Issuer or its designee, and the privileges thereof revoked at any time without prior notice.

4. Cardholder shall not use Card or permit the use of Related Cards to obtain Credit Purchases or Loans which will increase Cardholder’s
Visa indebtedness to Issuer to an amount in excess of the limit established by Issuer.

5. All Credit Purchases and Loans are affected at the option of the Seller and Cash Advancing Bank, respectively, and Issuer shall not be
responsible for refusal by any Seller or Cash Advancing Bank to honor the Card or any Related Card. Any refund, adjustment or credit
allowed by Seller shall not be by cash but rather by a credit advice to Issuer which shall be shown as a credit on Cardholder’s account
statement with Issuer.

6. Issuer will send to Cardholder, at monthly intervals determined by Issuer, a statement reflecting for the prior monthly period all Visa Card
and Related Card transactions. Such statement shall be deemed correct and accepted by Cardholder and all holders of Related Cards
unless Issuer is notified to the contrary in writing within 60 days of mailing of such statement. Cardholder will pay such statement by
remitting to Issuer within 25 days of the closing date reflected on the statement either the full amount billed or, at Cardholder’s option, an
Installment equal to at least the required minimum payment stated in Paragraph 4 of the Disclosures.

7. Interest on Loans and Credit Purchases will be charged in accordance with the interest calculation method referred to in Paragraph 3 of
the Disclosures. The rate of interest shall be established by Issuer.

8. If the Card is cancelled or surrender is demanded by Issuer, or if Cardholder defaults in any payment due, or is deceased, bankrupt or
insolvent, or any attachment or garnishment proceedings are initiated against Cardholder or his/her property, Issuer may elect to declare
all amounts then owed to Issuer to be immediately due and payable without notice or demand of any kind. If Cardholder has other loans
from Issuer or takes out other loans with Issuer in the future, collateral securing those loans will also secure the Cardholder’s obligation
under this agreement. However, unless the Cardholder expressly agrees otherwise, the Cardholder’s primary dwelling will not secure
Cardholder’s obligations under this agreement even if Issuer has or later acquires a mortgage on the dwelling. Cardholder agrees to pay
all costs incurred by Issuer in collecting Cardholder’s indebtedness or in enforcing this agreement, including attorney’s fees of 10% of the
unpaid balance or such greater amount as may be reasonable and just and also those costs, expenses and attorney’s fees incurred in
appellate, bankruptcy and post judgments proceedings except to the extent such costs, fees or expenses are prohibited by law.

9. The validity, construction and enforcement of this agreement and all matters arising out of the issuance and use of the Card shall be
governed by Federal law.

4

IMPORTANT VISA SIGNATURE AGREEMENT & DISCLOSURES

IF YOU HAVE ANY QUESTIONS
During business hours, you may call SCU at 1-800-868-8740, extension 8401.
SC State Federal Credit Union
PO Box 726
Columbia, SC 29202
Fax: 803-978-1037
If you have any questions concerning your account after hours or on the weekend, you may contact, SCU by calling
the following toll-free number, 1-866-583-4060.

At all times, if your card is lost or stolen, please contact the following toll-free number: 1-866-583-4060 or 1727-299-2449 outside the US.
PAYMENT ADDRESS
SC State Federal Credit Union
PO Box 71050
Charlotte, NC 28272-1050
PLEASE CONTINUE TO NEXT PAGE FOR COST INFORMATION.

5

IMPORTANT VISA SIGNATURE AGREEMENT & DISCLOSURES

Visa Signature Credit Card Cost Information
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases
APR for Balance Transfers
APR for Cash Advances

Signature: 7.25%
This APR will vary with the market based on the Prime Rate. *
Signature: 7.25%
This APR will vary with the market based on the Prime Rate. *
Signature: 7.25%
This APR will vary with the market based on the Prime Rate. *

Penalty APR and When It Applies

None

How to Avoid Paying Interest on
Purchases

Your due date is at least 25 days after the close of each billing cycle. We
will not charge you any interest on purchases if you pay your entire
balance by the due date each month. We will begin charging interest on
cash advances, including convenience checks, on the transaction date.

Minimum Interest Charge

None

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Consumer Financial Protection
Bureau at: http://consumerfinance.gov/learnmore

Fees
Annual Fee
Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction
• Verified by Visa Password Reset
• Statement Copy Fee
• Lost/Damaged Card Replacement
• Stop Payment on Convenience
Check

Penalty Fees
• Late Payment
• Over-the-Credit Limit
• Returned Payment

None
None
None
None
1 free per year; $5 each additional
$5 per statement
$10 per card
$25 per check

Up to $25
None; Over-the-Credit Limit transactions not allowed
Up to $25

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases or
advances).” Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in
your account agreement.
*Variable Rate Information: Your APR may vary. Variable Rate Feature: The Visa Signature Credit Cards have a variable rate
feature meaning that the Annual Percentage Rate (corresponding to the periodic rate) and the term of your Visa loan may change
due to interest rate fluctuations in the Prime Rate. The Annual Percentage Rate (APR) will be the Prime Rate, as reported in the
Wall Street Journal, plus a margin of 4%, and includes only interest and no other costs.
The credit union will acquire a security interest in the property purchased with your credit card; and collateral securing other loans
with us may also secure this account. Also, you are giving us a security interest in your shares and other deposits in the credit
union.
The information about the costs of the card described in this application is accurate as of March 19, 2020. This information may
have changed after that date. To find out what may have changed, call us at 1-800-868-8740, write us at: State Credit Union,
PO Box 726, Columbia, SC 29202, or visit www.scscu.com. Please refer to the Truth & Savings Rate & Fee Schedule for other
fees that may apply.
Rev 7/2021

6

